VA Office of Inspector General


                                 Veterans Health 

                                 Administration

                                  - Interim Report -


                                       Review of 

                                  Patient Wait Times, 

                                 Scheduling Practices, 

                                  and Alleged Patient 

                                 Deaths at the Phoenix 

                                  Health Care System 





                                                    May 28, 2014
                                                    14-02603-178 

              ACRONYMS AND ABBREVIATIONS

CBOC          Community Based Outpatient Clinic
EWL           Electronic Wait List
FY            Fiscal Year
GAO           Government Accountability Office
HAS           Health Administration Service
HCS           Health Care System
HVAC          House Veterans’ Affairs Committee
NEAR          New Enrollee Appointment Request
OIG           Office of Inspector General
PCMM          Primary Care Management Module
PDF           Portable Document Format
VA            Veterans Affairs
VHA           Veterans Health Administration
VistA         Veterans Health Information Systems and Technology Architecture



The VA OIG Hotline is the responsible office for complaints of fraud, waste,
abuse, and mismanagement within the Department of Veterans Affairs. Using the
VA OIG webpage, at www.va.gov/oig, will facilitate the processing of your input.

Federal regulations require that VA employees must report criminal matters
involving felonies to the OIG. Complainants are protected under the Inspector
General (IG) Act of 1978, which requires IGs to protect the identity of agency
employees, who complain or provide other information to the IG. In addition, the
IG Act makes reprisal against an employee contacting the IG a prohibited
personnel practice.

                                       --------------

        To Report Suspected Wrongdoing in VA Programs and Operations: 

                          Email: vaoighotline@va.gov

                             Telephone: 1-800-488-8244 

                  (Hotline Information: www.va.gov/oig/hotline) 

                            EXECUTIVE SUMMARY 



This interim report provides an overview of our ongoing review at the Phoenix Health Care
System (HCS), identifies the allegations we have substantiated to date, and provides
recommendations that VA should implement immediately. Allegations at the Phoenix HCS
include gross mismanagement of VA resources and criminal misconduct by VA senior hospital
leadership, creating systemic patient safety issues and possible wrongful deaths. While our work
is not complete, we have substantiated that significant delays in access to care negatively
impacted the quality of care at this medical facility.

The issues identified in current allegations are not new. Since 2005, the VA Office of Inspector
General (OIG) has issued 18 reports that identified, at both the national and local levels,
deficiencies in scheduling resulting in lengthy waiting times and the negative impact on patient
care. As required by the Inspector General Act of 1978, each of the reports listed was issued to
the VA Secretary and the Congress and is publicly available on the VA OIG website. These
reports are identified in Appendix D.

We initiated this review in response to allegations first reported to the OIG Hotline and expanded
it at the request of the VA Secretary and the Chairman of the House Veterans’ Affairs
Committee (HVAC) following an HVAC hearing on April 9, 2014, on delays in VA medical
care and preventable veteran deaths. Since receiving those requests we have received other
congressional requests including those submitted by the Chair and Ranking Members of the
following Committees and Subcommittees: HVAC Ranking Member; HVAC Subcommittee on
Oversight and Investigations; House Appropriations Committee; House Appropriations
Subcommittee on Military Construction, Veterans Affairs, and Related Agencies; Senate
Veterans’ Affairs Committee; Senate Appropriations Committee; and Senate Appropriations
Subcommittee on Military Construction, Veterans Affairs, and Related Agencies. In addition,
we received requests from Senators John McCain, Jeff Flake, Dianne Feinstein, Charles
Grassley, Tom Udall, and Michael Bennet; and Representatives Kyrsten Sinema and Jack
Kingston. We also have requests from a number of Texas House members specific to facilities
in Texas.

Due to the multitude and broad range of issues, we are conducting a comprehensive review
requiring an in-depth examination of many sources of information necessitating access to records
and personnel, both within and external to VA. We are using our combined expertise in audit,
healthcare inspections, and criminal investigations, along with our institutional knowledge of VA
programs and operations and legal authority to conduct a review of this nature and scope.

A detailed assessment of the information obtained from Phoenix HCS’ medical records and its
business practices requires a full understanding of VA’s current and historical policies and
procedures as well as the current practices, facts, and circumstances relating to these serious
allegations. We have and will continue to conduct comprehensive interviews of numerous
individuals to evaluate the many allegations, determine their validity, and if appropriate, assign
individual accountability. Despite the number of allegations, each individual allegation is


                                                i
nothing more than an allegation. We are charged with reviewing the merits of these allegations
and determining whether sufficient, credible factual evidence exists to meet the standards
required by applicable laws and regulations to hold VA, or specific individuals accountable on
the basis of criminal, civil, or administrative law and regulations.

In late April, the OIG assembled a multidisciplinary team comprised of board-certified
physicians, special agents, auditors, and healthcare inspectors from across the country to address
numerous allegations at this and other VA medical facilities. Since the Phoenix HCS story broke
in the national media, we have received allegations of similar issues regarding manipulated
waiting times at other Veteran Health Administration (VHA) medical facilities through the OIG
Hotline, from members of Congress, VA employees, veterans and their families, and the media.

In response, we have opened reviews at other VHA medical facilities to determine whether
scheduling practices are and/or were in use that did not comply with VHA’s scheduling policies
and procedures. Clearly, there are national implications associated with inappropriate and
non-compliant scheduling practices, including the impact on patient care and a lack of data
integrity. Veterans who utilize the VA health care system deserve quality care in a timely
manner. Therefore, it is necessary that information relied upon to make mission-critical
management decisions regarding the demand for vital health care services must be based on
reliable and complete data throughout VA’s health care networks. It is important to note that the
information in this interim report is dynamic and changes may occur as our review progresses. I
have directed our teams to focus on two fundamental questions:

(1) 	 Did the facility’s electronic wait list (EWL) purposely omit the names of veterans waiting
      for care and, if so, at whose direction?
(2) 	 Were the deaths of any of these veterans related to delays in care?

To address the allegations received thus far and remain prepared to address new allegations at
medical facilities throughout VA, we are deploying Rapid Response Teams. We are not
providing VA medical facilities advance notice of our visits to reduce the risk of destruction of
evidence, manipulation of data, and coaching staff on how to respond to our interview questions.
To date, we have ongoing or scheduled work at 42 VA medical facilities and have identified
instances of manipulation of VA data that distort the legitimacy of reported waiting times. When
sufficient credible evidence is identified supporting a potential violation of criminal and/or civil
law, we have contacted and are coordinating our efforts with the Department of Justice.

Our review at the Phoenix HCS includes the following actions:

	   Interviewing staff with direct knowledge of patient scheduling practices and policies,
     including scheduling clerks, supervisors, patient care providers, management staff, and
     whistleblowers who have stepped forward to report allegations of wrongdoing.
	   Collecting and analyzing voluminous reports and documents from VHA information
     technology systems related to patient scheduling and enrollment.
	   Obtaining and reviewing VA and non-VA medical records of patients whose death
     occurred while on a waiting list, or is alleged to be related to a delay in care.



                                                 ii
	   Reviewing performance standards, ratings, and awards of senior facility staff.
	   Reviewing past and new complaints to the OIG Hotline on delays in care, as well as those
     complaints shared with us by members of Congress or reported by the media.
	   Reviewing other documents and reports relevant to these allegations, including
     administrative boards of investigations or reports of reviews conducted by VHA’s Office of
     the Medical Inspector.
	   Reviewing over 550,000 email messages and documents, extracted from over 50 gigabytes
     of collected email. In addition, imaging and reviewing 10 encrypted computers and/or
     devices, and over 140,000 network files.

Our reviews at a growing number of VA medical facilities have thus far provided insight into the
current extent of these inappropriate scheduling issues throughout the VA health care system and
have confirmed that inappropriate scheduling practices are systemic throughout VHA. One
challenge in these reviews is to determine whether these practices exist currently or were used in
the past and subsequently corrected by VA managers.

To date, our work has substantiated serious conditions at the Phoenix HCS. We identified about
1,400 veterans who did not have a primary care appointment but were appropriately included on
the Phoenix HCS’ EWLs. However, we identified an additional 1,700 veterans who were
waiting for a primary care appointment but were not on the EWL. Until that happens, the
reported wait time for these veterans has not started. Most importantly, these veterans were and
continue to be at risk of being forgotten or lost in Phoenix HCS’s convoluted scheduling process.
As a result, these veterans may never obtain a requested or required clinical appointment. A
direct consequence of not appropriately placing veterans on EWLs is that the Phoenix HCS
leadership significantly understated the time new patients waited for their primary care
appointment in their FY 2013 performance appraisal accomplishments, which is one of the
factors considered for awards and salary increases.

To review the new patient wait times for primary care in FY 2013, we reviewed a statistical
sample of 226 Phoenix HCS appointments. VA national data, which was reported by Phoenix
HCS, showed these 226 veterans waited on average 24 days for their first primary care
appointment and only 43 percent waited more than 14 days. However, our review showed these
226 veterans waited on average 115 days for their first primary care appointment with
approximately 84 percent waiting more than 14 days. At this time, we believe that most of the
waiting time discrepancies occurred because of delays between the veteran’s requested
appointment date and the date the appointment was created. However, we found that in at least
25 percent of the 226 appointments reviewed, evidence, in veterans’ medical records, indicates
that these veterans received some level of care in the Phoenix HCS, such as treatment in the
emergency room, walk in clinics, or mental health clinics.

Our reviews have identified multiple types of scheduling practices that are not in compliance
with VHA policy. Since the multiple lists we found were something other than the official EWL,
these additional lists may be the basis for allegations of creating “secret” wait lists. We are not
reporting the results of our clinical reviews in this interim report on whether any delay in
scheduling a primary care appointment resulted in a delay in diagnosis or treatment, particularly



                                                iii
for those veterans who died while on a waiting list. The assessments needed to draw any
conclusions require analysis of VA and non-VA medical records, death certificates, and autopsy
results. We have made requests to appropriate state agencies and have issued subpoenas to
obtain non-VA medical records. All of these records will require a detailed review by our
clinical teams.

Lastly, while conducting our work at the Phoenix HCS our on-site OIG staff and OIG Hotline
received numerous allegations daily of mismanagement, inappropriate hiring decisions, sexual
harassment, and bullying behavior by mid- and senior-level managers at this facility. We are
assessing the validity of these complaints and if true, the impact to the facility’s senior
leadership’s ability to make effective improvements to patients’ access to care.

We will make recommendations in our final report and ask the VA Secretary to submit target
dates and implementation plans. However, to ensure all veterans receive appropriate care, we
submit to the VA Secretary the following recommendations for his immediate implementation.
We will address the sufficiency of the VA Secretary’s action to implement the following
recommendations in our final report.

1.	   We recommend the VA Secretary take immediate action to review and provide appropriate
      health care to the 1,700 veterans we identified as not being on any existing wait list.
2.	   We recommend the VA Secretary review all existing wait lists at the Phoenix Health Care
      System to identify veterans who may be at greatest risk because of a delay in the delivery
      of health care (for example, those veterans who would be new patients to a specialty clinic)
      and provide the appropriate medical care.
3.	   We recommend the VA Secretary initiate a nationwide review of veterans on wait lists to
      ensure that veterans are seen in an appropriate time, given their clinical condition.
4.	   We recommend the VA Secretary direct the Health Eligibility Center to run a nationwide
      New Enrollee Appointment Request report by facility of all newly enrolled veterans and
      direct facility leadership to ensure all veterans have received appropriate care or are shown
      on the facility’s electronic waiting list.

We will provide VA with the list of the 1,700 veterans we identified as not being on any wait list
so that VA can mitigate any further access delays to health care services, and deliver higher
quality of health care.




RICHARD J. GRIFFIN 

Acting Inspector General 





                                                iv
                                         TABLE OF CONTENTS 


Executive Summary ......................................................................................................................... i
 

Results and Recommendations ........................................................................................................1
 

Issue 1              Did the Phoenix Health Care System Electronic Wait List (EWL) Purposely 

                     Omit the Names of Veterans Waiting for Care and, If So, At Whose
                     Direction?.................................................................................................................1
 

Issue 2              Are VHA Personnel Following Established Scheduling Procedures To Ensure 

                     Waiting Times Are Calculated Accurately? ............................................................3
 

                     Recommendations....................................................................................................5
 

Appendix A  Background ..............................................................................................................6
 

Appendix B  Scope and Methodology ..........................................................................................9
 

Appendix C  Chronology of OIG and GAO Oversight of Patient Wait Times...........................11
 

Appendix D  OIG Oversight Reports on VA Patient Wait Times ..............................................15
 

Appendix E  Memorandum from the Deputy Under Secretary for Health for Operations and 

            Management, Dated April 26, 2010, Titled: Inappropriate Scheduling
            Practices .................................................................................................................17
 

Appendix F           OIG Testimony on VA Patient Wait Times...........................................................24
 

Appendix G  Office of Inspector General Contact and Staff Acknowledgments ...................... 27
 

Appendix H  Report Distribution ............................................................................................... 28
 
                        Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                   at the Phoenix Health Care System



                RESULTS AND RECOMMENDATIONS 

Issue 1 	          Did the Phoenix Health Care System Electronic Wait List
                   (EWL) Purposely Omit the Names of Veterans Waiting
                   for Care and, If So, At Whose Direction?

                   We substantiated serious conditions at the Phoenix Health Care System (HCS)
                   negatively impacted access to health care services. As of April 22, 2014, we
                   identified about 1,400 veterans waiting to receive a scheduled primary care
                   appointment and who were appropriately included on the Phoenix HCS
                   electronic waiting list (EWL). At the same time, we identified an additional
                   1,700 veterans who were waiting for a primary care appointment but were not
                   on the EWL. We identified these 1,700 veterans from three sources:

                   	 New Enrollee Appointment Request (NEAR) tracking report at Phoenix
                      HCS listed about 1,100 newly enrolled veterans who indicated they
                      wanted a primary care appointment but as of April 28, 2014, had not
                      received one and were not on the EWL.
                   	 Screenshot Paper Printouts represented about 400 newly enrolled veterans
                      who called the Phoenix HCS Helpline and requested a primary care
                      appointment. As of April 2014, the facility had yet to schedule these
                      veterans their primary care appointment or add them to the EWL.
                   	 “Schedule an Appointment Consult” represented about 200 veterans
                      referred to primary care, but the consult was still pending. These
                      200 veterans were seen in a non-primary care clinic, such as mental health
                      or the emergency department, but were then referred to primary care. As
                      of April 2014, the facility had yet to schedule these veterans their primary
                      care appointment or add them to the EWL.

                   The length of time these 1,700 veterans wait for appointments prior to being
                   scheduled or added to the EWL will never be captured in any VA wait time
                   data because Phoenix HCS staff had not yet scheduled their appointment or
                   added them to the EWL. Until that happens, the reported wait time for these
                   veterans has not started. Most importantly, these veterans were and continue
                   to be at risk of being lost or forgotten in Phoenix HCS’ convoluted scheduling
                   practices. As a result, these veterans may never obtain their requested or
                   required primary care appointment.

NEAR Report 	      The NEAR report is a tool used by enrollment staff to notify Primary Care
                   Management Module (PCMM) coordinators or schedulers that a newly
                   enrolled veteran has requested an appointment during the enrollment process.
                   As of April 28, 2014, the NEAR report listed 1,138 veterans who were
                   waiting for an appointment an average of 200 days. However, only 53 of the


VA Office of Inspector General                                                                      1
                        Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                   at the Phoenix Health Care System



                   1,138 veterans were on the EWL. The remaining 1,085 patients were not on
                   the EWL. Consequently, their wait time prior to being scheduled or added to
                   the EWL would potentially never be captured in any VA wait time data.

Screenshot         According to Health Administration Service (HAS) personnel, when veterans
Paper Printouts    enrolled for care at the Phoenix HCS, eligibility staff provided the veteran the
                   Phoenix HCS Helpline phone number to call and get their primary care
                   appointment. When the veteran called the Helpline, staff from the Helpline
                   collected patient demographics of the veteran, took a screenshot, and then
                   printed the information. From about February 2013 through March 2014, the
                   Helpline information printed directly to HAS printers in Data Management
                   services. HAS personnel from Outpatient services were responsible for
                   collecting the screenshot paper printouts from Data Management and adding
                   the veterans from the printouts to the EWL. HAS personnel told us there were
                   often delays and backlogs in adding the veterans from the printouts to the
                   EWL. In addition, HAS personnel said they held the printouts for a 1-2 month
                   period during the beginning of this process before adding them to the EWL.
                   HAS personnel also told us they destroyed these screenshot paper printouts
                   after they either scheduled the veteran an appointment, placed the veteran on
                   the EWL, or determined the veteran was not a new patient. Because of this,
                   we could not identify these veterans or confirm that they were ever provided
                   an appointment.

                   In March 2014, instead of printing the screenshot paper printouts to Data
                   Management services, another HAS employee received the printouts and
                   created a Portable Document Format (PDF) of the compiled screenshots each
                   day and electronically forwarded the PDF to the responsible Outpatient
                   services personnel. We obtained PDF screen prints from March 24 through
                   April 25, 2014, and identified about 400 veterans who were waiting for an
                   appointment and were not on the EWL. According to a HAS employee, these
                   veterans were subsequently added to the EWL during our on-site review. For
                   example, a veteran emailed the OIG Hotline on May 14, 2014, and said he
                   enrolled at Phoenix HCS on April 3, 2014. At that time, he was told by
                   Phoenix HCS staff he was going to be put on the EWL. He called the medical
                   facility again in May to check on his status and HAS staff told him they
                   placed him on the EWL on May 6, 2014, and suggested it would be another
                   3-4 months before he would be seen. This veteran was one of the 400 names
                   we found in the PDF screenshot paper printouts. This veteran’s wait time was
                   unaccounted for during this 1-month period from April to May 2014.

Schedule an        Emergency department physicians, inpatient services, and mental health
Appointment        providers at the Phoenix HCS use a “Schedule an Appointment Consult” to
Consult            request primary care appointments for their patients. As of April 2014, there
                   were 200 veterans with a pending “Schedule an Appointment Consult.” The
                   wait time for patients with a pending consult starts when schedulers create the
                   appointment or place them on the EWL. This means the wait time for these


VA Office of Inspector General                                                                      2
                        Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                   at the Phoenix Health Care System



                   200 patients prior to being scheduled or added to the EWL will never be
                   captured in any VA wait time data.

Issue 2            Are VHA Personnel Following Established Scheduling
                   Procedures To Ensure Waiting Times Are Calculated
                   Accurately?

New Patient        The Phoenix HCS leadership understated the time new patients waited for
Waiting Times      their primary care appointment listed in their FY 2013 performance appraisal
                   accomplishments, which is one of the factors considered for awards and salary
                   increases. To review the accuracy of new patient wait times for primary care
                   in FY 2013, we reviewed a statistical sample of 226 new patient primary care
                   appointments completed at Phoenix HCS. VA national wait time data, which
                   was reported by Phoenix HCS, showed these 226 veterans waited on average
                   24 days for their primary appointment and only 43 percent waited more than
                   14 days. However, our review found these 226 veterans waited on average
                   115 days for their primary care appointment, and an estimated 84 percent
                   waited more than 14 days. Most of the wait time discrepancies occurred
                   because of delays between the veteran’s requested appointment date and the
                   date the appointment was created. We noted in at least 25 percent of the
                   226 appointments reviewed, patients received some health care in the
                   Phoenix HCS, such as the emergency department, walk-in clinics, or mental
                   health clinics.

Established        We are continuing to analyze interviews of over 65 schedulers at the
Patient Waiting    Phoenix HCS. However, at this time, it appears that a significant number of
Times
                   schedulers are manipulating the waiting times of established patients by using
                   the wrong desired date of care. Instead of schedulers using a date based on
                   when the provider wants to see the veteran or when the veteran wants an
                   appointment, the scheduler deviates from VHA’s scheduling policy by going
                   into the system to determine when the next available appointment is and using
                   that as a purported desired date. This results in a false 0-day wait time. We
                   evaluated FY 2013 established patient appointments in primary care and
                   determined that for 66 percent of appointments, Phoenix HCS recorded
                   veterans had no wait time. We will conduct interviews with facility
                   scheduling supervisors and senior management and initiate additional
                   document reviews to identify management’s involvement in manipulating
                   wait times.

Inappropriate      Our review broadened to address allegations of the manipulation of patient
Scheduling         wait times and inappropriate scheduling practices at other VA medical
Practices
Corroborated at
                   facilities. We are finding that inappropriate scheduling practices are a
a Number of        systemic problem nationwide. We have identified multiple types of
Other Facilities   scheduling practices not in compliance with VHA policy. Our preliminary
                   work has revealed a number of types of scheduling schemes are in use


VA Office of Inspector General                                                                      3
                        Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                   at the Phoenix Health Care System



                    throughout VHA. Many of these schemes are detailed in the then Deputy
                    Under Secretary for Health for Operations and Management
                    April 2010 Memorandum on Inappropriate Scheduling Practices. The purpose
                    of the memorandum was to call for immediate action to identify and eliminate
                    VHA’s use of inappropriate scheduling practices to improve scores on clinical
                    access performance measures. The memorandum discussed many of the same
                    schemes we identified at Phoenix HCS and other medical facilities throughout
                    VHA. The following schemes are examples we have identified and should
                    not be considered a complete listing of inappropriate scheduling practices.
                    The memorandum is Appendix E.

Scheduling          Schedulers go into the scheduling program, find an open appointment, ask the
Scheme #1           veteran if that appointment would be acceptable, back out of the scheduling
                    program, and enter the open appointment date as the veteran’s desired date of
                    care. This makes the wait time of an established patient 0 days.

Scheduling          Schedulers at several locations described a process using the Clinic
Scheme #2           Appointment Availability Report (or similar report) to identify individual
                    schedulers whose appointments exceeded the 14-day goal. Scheduling
                    supervisors told schedulers to review these reports and “fix” any appointments
                    greater than 14 days. Schedulers say they were instructed to reschedule the
                    appointments for less than 14 days. At one location, a scheduler told us each
                    supervisor was provided a list of schedulers who exceeded the 14-day goal.
                    To keep their names off the supervisor’s list, schedulers automatically
                    changed the desired date to the next available appointment, thereby, showing
                    no wait time.
Scheduling          Staff at two VA medical facilities deleted consults without full consideration
Scheme #3           of impact to patients. The first facility deleted pending consults in excess of
                    90 days without adequate reviews by clinical staff. Schedulers working at the
                    second facility cancelled provider consults without review by clinical staff.

Scheduling          Multiple schedulers described to us a process they use that essentially
Scheme #4           “overwrites” appointments to reduce the reported waiting times. Schedulers
                    make a new appointment on top of an existing appointment of the same date
                    and time. This cancels the existing appointment but does not record a
                    cancelled appointment. This action allows the scheduler to overwrite the prior
                    Desired Date and appointment Create Date with a new Desired Date. This
                    adjusts the Create Date to the current date of entry and the Desired Date to the
                    date of the appointment, thus reducing the reported wait time.

VistA Audit Trail   During our review at Phoenix HCS we determined that certain audit controls
                    within Veterans Health Information Systems and Technology Architecture
                    (VistA) were not enabled. This limited VHA and the OIG’s ability to
                    determine whether any malicious manipulation of the VistA data occurred.
                    To ensure our future oversight ability is not compromised, we requested VA


VA Office of Inspector General                                                                      4
                        Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                   at the Phoenix Health Care System



                   to immediately enable this audit trail capability at all VA medical facilities.
                   VA completed this action.

                   We are also reviewing and assessing differences between EWLs for the
                   Phoenix HCS. VA’s national data showed an EWL of less than 300 veterans;
                   however the Phoenix EWL included approximately 1,400 veterans.
                    
                   Recommendations

                   We will make recommendations in our final report and will ask the
                   VA Secretary to establish target dates and implementation plans. However, to
                   ensure all veterans receive timely appropriate care, we submit to the
                   VA Secretary the following recommendations for his immediate
                   implementation. We will provide VA with the list of the 1,700 veterans we
                   identified as not being on any wait list so that VA can address
                   Recommendation 1. We will address the sufficiency of the VA Secretary’s
                   action to implement the following recommendations in our final report.

                   1. We recommend the VA Secretary take immediate action to review and
                   provide appropriate health care to the 1,700 veterans we identified as not
                   being on any existing wait list.

                   2. We recommend the VA Secretary review all existing wait lists at the
                   Phoenix Health Care System to identify veterans who may be at risk because
                   of a delay in the delivery of health care (for example, those veterans who
                   would be new patients to a specialty clinic) and provide the appropriate
                   medical care.

                   3. We recommend the VA Secretary initiate a nationwide review of veterans
                   on wait lists to ensure that veterans are seen in an appropriate time, given their
                   clinical condition.

                   4. We recommend the VA Secretary direct the Health Eligibility Center to
                   run a nationwide New Enrollee Appointment Request report by facility of all
                   newly enrolled veterans and direct facility leadership to ensure all veterans
                   have received appropriate care or are shown on the facility’s electronic
                   waiting list.




VA Office of Inspector General                                                                      5
                        Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                   at the Phoenix Health Care System



Appendix A Background

Phoenix VA         The Phoenix HCS serves veterans in central Arizona through its main medical
Health Care        facility, the Carl T. Hayden VA Medical Center. Veterans can be seen at one
System             of the medical center’s three full primary care clinics or its half-clinic.

                   The Phoenix HCS also has affiliated health care clinics in the communities of
                   Phoenix, Surprise, Gilbert, Payson, Show Low, and Globe.

                      The Thunderbird VA Health Care Clinic in Phoenix serves veterans from
                       the communities of North/Central Phoenix, Glendale, Peoria, Scottsdale,
                       Avondale, Sun City, Goodyear and Surprise.
                      The Northwest Veterans Affairs Health Care Clinic in Surprise serves
                       veterans from the communities of El Mirage, Glendale, Peoria, Sun City,
                       Sun City West, Surprise, Wickenburg and Wittman.
                      The Southeast VA Health Care Clinic in Gilbert serves veterans on the
                       east side of the valley including the communities of Ahwautukee, Apache
                       Junction, Casa Grande, Chandler, Coolidge, Florence, Mesa, Superior, and
                       Queen Creek.
                      The Payson Veterans Affairs Health Care Clinic is a contract clinic
                       offered to veterans through a partnership with Health Net Federal
                       Services. The clinic serves veterans in the greater Payson area,
                       approximately 90 miles north of Phoenix and is staffed by one physician.
                      The Show Low VA Health Care Clinic in Show Low serves veterans in
                       the communities of Show Low, Strawberry, Pine, Payson, Lakeside,
                       Pinetop, Vernon, Concho, St. Johns, Snowflake, Taylor, Springerville,
                       Eagar, Holbrook, Alpine, Greer, and Whiteriver.          The clinic is
                       approximately 180 miles northeast of Phoenix and has staffing allocations
                       for a physician and nurse practitioner. As of May 2014, the nurse
                       practitioner position was vacant.
                      The Globe-Miami VA Health Care Clinic in Globe is 87 miles east of
                       Phoenix and is staffed by a nurse practitioner.

                   On the following page is a map of the locations of the Phoenix area clinics.




VA Office of Inspector General                                                                      6
                            Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                       at the Phoenix Health Care System




                          PHOENIX	AREA	COMMUNITY	CLINICS




  Thunderbird Clinic                                                                     Payson Clinic
      (Phoenix)



  Northwest Clinic                                                                     Show Low Clinic
     (Surprise)

                                                                                  Globe – Miami Clinic




                                                                             Southeast Clinic (Gilbert)



                                                                                            Source: Google©




Tracking Wait           In February 2002, the then Deputy Under Secretary for Health sent a
Time Data               memorandum to the VHA Deputy Chief Information Officer for Health
                        requesting the development of an EWL to effectively track the demand for
                        services at VA medical facilities. The memorandum indicated that existing
                        wait time measures at the time reflected the experience of veterans already in
                        the system but did not capture the waiting time experience of new veteran
                        enrollees or patients without a scheduled appointment. At the time “ad hoc”
                        written waiting lists of new veteran enrollees to be entered in the scheduling
                        system were known to exist. The memorandum attempted to formalize an
                        EWL in VistA to more consistently and accurately reflect demand across
                        VHA.

                        In November 2002, the EWL package and Phase I enhancement to the
                        primary care management module was released. At the time of release there
                        had been no VHA software to list and track patients waiting for clinic
                        appointments, primary care team assignments, or primary care provider
                        assignments. The EWL was intended to assist VA medical facilities in
                        managing veteran access to outpatient health care, assist clinics in identifying



VA Office of Inspector General                                                                                7
                        Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                   at the Phoenix Health Care System



                   patients in need of appointments, primary care teams, and primary care
                   providers.

                   In the outpatient setting, patients are assigned a primary care team and
                   provider who are responsible for delivering care, coordinating health care
                   services, and serving as the point of access for specialty care. This is
                   accomplished through the PCMM of VistA. When a patient cannot be
                   assigned to a primary care team or position, the PCMM software asks if the
                   patient should be placed on the EWL. PCMM Wait List reports assist in the
                   management of patients awaiting a primary care team or provider assignment.

                   The goal of the EWL is to provide care to the patient as quickly as possible.
                   The EWL keeps track of appointments, clinics, and providers associated with
                   patients on the various EWLs. Patient eligibility information and service
                   connected status is also recorded and updated. The EWL runs background
                   programs to determine changes in the veteran’s service-connected percentage,
                   and service-connected priority, as well as changes to appointment, clinics, and
                   personnel that affect EWL patients. EWL also sends messages to assigned
                   mail groups to notify them of such changes. The EWL can also produce
                   reports on demand regarding EWL related activities.




VA Office of Inspector General                                                                      8
                        Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                at the Phoenix VA Health Care System



Appendix B          Scope and Methodology

                    We initiated this review in response to allegations first reported to the OIG
                    Hotline and expanded at the request of the VA Secretary and the Chairman
                    of the House Veterans’ Affairs Committee (HVAC) following an HVAC
                    hearing on April 9, 2014, on delays in VA medical care and preventable
                    veteran deaths.       We began a review at the Phoenix HCS in
                    December 2013 and expanded our work in April 2014. We reviewed patient
                    care delays, scheduling practices, and wait times at Phoenix HCS from
                    FY 2013 to present. In addition, we are reviewing patient care delays of
                    veterans specifically named in allegations or media publications. To address
                    our review objective, we reviewed applicable laws, regulations, policies,
                    procedures, guidelines, and studies.

                    Our review at the Phoenix HCS includes the following actions:

                    	 Interviewing staff with direct knowledge of patient scheduling practices
                       and policies, including scheduling clerks, supervisors, patient care
                       providers, management staff, and whistleblowers who reported
                       allegations of wrongdoing.
                    	 Collecting and analyzing voluminous reports and documents from VHA
                       information technology systems related to patient scheduling and
                       enrollment.
                    	 Reviewing VA and non-VA medical records of patients whose deaths
                       may be related to delays in care.
                    	 Reviewing performance standards, ratings, and awards of senior facility
                       staff.
                    	 Reviewing past and newly reported complaints to the OIG Hotline on
                       delays in care, as well as those complaints shared with us by members of
                       Congress or reported by the media.
                    	 Reviewing other prior reports relevant to these allegations, including
                       administrative boards of investigations or reports from the VHA’s Office
                       of the Medical Inspector.
                    	 Reviewing over 550,000 email messages and documents, extracted from
                       over 50 gigabytes of collected email. In addition, imaging and reviewing
                       10 encrypted computers and/or devices, and over 140,000 network files
                       for review.

                    Additionally, we focused on measures contained in the FY 2013 Director’s
                    Performance Measures, to include the accuracy of new patient wait times for
                    primary care in FY 2013. To review this, we analyzed a statistical sample of
                    appointments to evaluate whether patients received a new primary care


VA Office of Inspector General                                                                      9
                        Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                at the Phoenix VA Health Care System



                    appointment within 14 days. We obtained the data in which Phoenix HCS
                    officials identified as the source data used to support the Director’s
                    FY 2013 performance appraisal. We then obtained a statistically random
                    sample of 226 appointments to test the data.

                    We interviewed over 120 staff, including schedulers, data analysts,
                    providers, and supervisors. During the review, we visited the Phoenix HCS
                    main campus and three large primary care clinics located at the community
                    based outpatient sites. The review teams are using these interviews to
                    determine if Phoenix HCS personnel followed established scheduling
                    procedures. Additional interviews are planned.

Government          Our assessment of internal controls focused on those controls relating to our
Standards           review objectives. The Office of Audits and Evaluations, the Office of
                    Healthcare Inspections, and the Office of Investigations are completing this
                    ongoing independent joint review in accordance with The Council of the
                    Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation.




VA Office of Inspector General                                                                     10
                        Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                at the Phoenix VA Health Care System



Appendix C 	 Chronology of OIG and Government Accountability
             Office Oversight of Patient Wait Times

                    For almost a decade, OIG and Government Accountability Office (GAO)
                    reviews identified that VHA managers needed to improve efforts for
                    collecting, trending, and analyzing clinical data. Because of continued
                    weaknesses in quality management data, particularly the implementation and
                    evaluation of corrective actions, facility senior managers needed to clearly
                    state their expectations to all managers and program coordinators. Further,
                    VA’s corrective actions must be evaluated until resolution is achieved. VHA
                    needs to have a stronger system for corrective action implementation and
                    evaluation to provide reasonable assurance that its facilities are thoroughly
                    addressing quality of care and patient safety issues.

                    The following provides selected highlights in a chronological summary of
                    OIG oversight addressing wait times, scheduling practices, data integrity
                    concerns, and the lack of physician and nurse staffing standards.

      2005
                OIG reports, in the Audit of VHA’s Outpatient Scheduling Procedures, July 2005,
                that VHA did not follow established procedures when scheduling appointments,
                resulting in inaccurate wait times and lists.
                 Nationwide electronic wait lists could be understated by as many as 10,000
                    veterans
                 VHA lacks standardized training programs for scheduling
                 Insufficient oversight

      2006
                In the 2006 Performance and Accountability Report, we identified that VA
                medical facilities did not have effective controls to ensure all newly-enrolled
                veterans in need of care, received it, and within VHA’s goal of 30 days of the
                desired date of care or veterans received clinically-indicated specialty procedures
                within a reasonable time. OIG recommended VA:
                 Monitor the demand for non-institutional care
                 Direct VHA facilities to implement tracking mechanisms to identify newly
                    enrolled veterans
                 Establish standardized tracking methods and appropriate performance metrics
                    throughout all medical facilities




VA Office of Inspector General                                                                     11
                        Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                at the Phoenix VA Health Care System



      2007
                OIG performed a follow-up audit, Audit of VHA’s Outpatient Wait Times, Sept 

                2007, again concluding the data in the scheduling system remained inaccurate. 

                We reviewed 300 consult referrals and found more than 180 veterans were not on 

                a waiting list, but should have been. 

                 Only 75 percent of appointments met 30 days for consults. 

                 VHA disagreed and said that patient preference caused the unexplained 

                   differences.
                	 Although policy requires schedulers to document patient preferences, VHA
                   felt this was an unreasonable expectation.
                	 VHA concluded that the system lacked documentation to support their
                   position.
                	 Contrary to OIG reports, VA reported high performance in the VA
                   Performance and Accountability Reports, even after we had twice reported the
                   scheduling system contained inaccurate, incomplete, and unreliable data.
                	 We testified in December 2007 that these issues go beyond reported waiting
                   times. Debating whose numbers are more correct only overshadows the
                   primary point of both our prior audit reports, which is that the information in
                   the VHA scheduling system is incomplete.
                	 As reported in the Major Management Challenges, OIG reviews have shown
                   unacceptably high waiting times, and delays remain in obtaining sub-specialty
                   procedures and sub-specialty medical diagnoses. OIG continues to identify
                   waiting times and patient waiting lists, a problem on which OIG reported and
                   sought corrective action since 2005. OIG will continue to review medical
                   outcomes and quality of care issues.

      2008
                In VA’s Major Management Challenges, OIG reported VA made only limited
                progress in addressing the long-standing and underlying causes of problems with
                outpatient scheduling, accuracy of reported waiting times, and completeness of
                electronic waiting lists. Of concern is VHA’s delay in implementing appropriate
                quality procedures necessary to ensure the reliability of waiting times and waiting
                lists.

                The May 2008 OIG report on Veterans Integrated Service Network (VISN) 3
                waiting times determined scheduling procedures were not followed, which
                affected the reliability of reported wait times and caused inaccuracies in the
                electronic waiting lists. OIG recommended VHA establish procedures to
                routinely test the accuracy of reported waiting times and the completeness of
                electronic waiting lists, as well as take corrective action when their testing shows
                questionable differences between the desired dates of care and those documented
                in the scheduling system. OIG reported that the problems and the causes
                associated with scheduling, wait times, and wait lists, are systemic throughout
                VHA.



VA Office of Inspector General                                                                     12
                        Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                at the Phoenix VA Health Care System




                VHA disagreed with the OIG assessment that appropriate implementation of
                quality assurance procedures to ensure reliability of wait time and wait lists, had
                been delayed. While VHA improved the trends in access to care, which is
                independent of the issues for measuring wait times, it did implement several
                initiatives to address some quality assurance measures for wait times and waiting
                lists:
                 VHA established a formal scheduler national training program
                 Required audits of scheduler performance
                 Implemented a “no veteran left behind” initiative
                 Hired an outside consultant to provide recommendations for wait time
                     measurement
                 Implemented national reporting software linking consult-creation -date
                     information to:
                    - Appointment creation date
                    - Appointment completion date
                    - Desired appointment date
                 Though comprehensive in its capabilities, the inconsistencies and inaccuracies
                     of data input affected the reliability of reported waiting times

      2009
                OIG reported long-standing problems with outpatient scheduling delays, accuracy
                of reported waiting times, and incomplete electronic waiting lists. OIG
                recommended VHA implement an effective method to accurately measure and
                report outpatient appointments. VA’s response, to address variations in the
                quality of care, was to establish new directives outlining VHA’s leadership and
                accountability at all levels of the organization, and to improve communication
                throughout VA. OIG listed outpatient scheduling, waiting times, and EWL data
                integrity issues as OIG’s first “hot issues” paper in Administration transition
                briefing materials.

      2010
                OIG reported VHA lacks the management controls needed to ensure Community
                Based Outpatient Clinics (CBOCs) provided veterans consistent, quality care.
                OIG noted that CBOC primary care data is inaccurate. VA responded with new
                directives providing more detailed instruction for schedules on correct entry of
                desired date and other essential to improve the scheduling of veterans/
                appointments.

      2012
                OIG testified before the House and Senate Veterans’ Affairs Committees that
                VHA’s mental health performance data is not accurate or reliable, and its
                measures do not adequately reflect critical dimensions of mental health care
                access.




VA Office of Inspector General                                                                     13
                        Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                at the Phoenix VA Health Care System




                The inaccuracies in some of VHA’s data sources presently hinder the usability of
                information by VHA decision-makers to fully assess their:
                 Current capacity
                 Optimal resource distribution
                 Productivity across the system
                 Establish mental staffing and productivity standards

                In VA’s 2011 Performance Accountability Report, VHA reported 95 percent of
                first-time patients received a full mental health evaluation within 14 days. Our
                analysis of the same information calculated only 49 percent of the first-time
                patient’s initial contact in mental health and their full mental health evaluation
                occurred within their goal of 14 days.

                OIG also reported that controls over pre-authorizing of fee care services needed
                improvement. In FY 2011, OIG substantiated an allegation that the Phoenix HCS
                experienced an $11.4 million budget shortfall—20 percent of the non-VA fee care
                programs funded for that year. Health care system management did not have
                sufficient procedural and monitoring controls to establish that:
                 The official designated to pre-authorize fee care thoroughly reviewed requests
                 Clinical staff conducted necessary utilization and concurrent reviews
                 Fee staff obligated sufficient funds for fee care

                As a result, the Phoenix HCS had to obtain additional funds from the National Fee
                Program and VISN 18 and cancel equipment purchases to cover the $11.4 million
                shortfall. OIG concluded that authorization procedures, and the procedures to
                obligate sufficient funds to insure it could pay its commitments, were so weak that
                the Phoenix HCS processed about $56 million of fee claims during FY 2010
                without adequate review.

                OIG’s Audit of VHA’s Physician Staffing Levels for Specialty Care Services,
                identified the need for VHA to improve their staffing methodology by
                implementing productivity standards. OIG determined VHA had not established
                productivity standards for 31 of 33 specialty care services reviewed, and had not
                developed staffing plans that addressed the facilities’ mission, structure,
                workforce, recruitment, and retention issues to meet current or projected patient
                outcomes, clinical effectiveness, and efficiency. VA agreed to put staffing
                standards for specialty care in place by FY 2015.

      2013
                GAO testified on wait times, before the HVAC, Subcommittee on Oversight and
                Investigations, that VA needed improvements in the reliability of VHA’s reported
                medical appointment wait times, scheduling oversight and VHA initiatives to
                improve access to timely medical appointments.



VA Office of Inspector General                                                                       14
                          Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                  at the Phoenix VA Health Care System



Appendix D          OIG Oversight Reports on VA Patient Wait Times

                    A list of the published OIG reports follows:

                    1.	     Audit of the Veterans Health Administration's Outpatient Scheduling
                            Procedures (7/8/2005)

                    2.	     Audit of the Veterans Health Administration's Outpatient Waiting
                            Times (9/10/2007)

                    3.	     Audit of Alleged Manipulation of Waiting Times in Veterans Integrated
                            Service Network 3 (5/19/2008)

                    4.	     Audit of Veterans Health Administration's Efforts to Reduce Unused
                            Outpatient Appointments (12/4/2008)

                    5.	     Healthcare Inspection – Mammography, Cardiology, and Colonoscopy
                            Management Jack C. Montgomery VA Medical Center Muskogee,
                            Oklahoma (2/2/2009)

                    6.	     Audit of Veterans Health Administration's Non-VA Outpatient Fee
                            Care Program (8/3/2009)

                    7.	     Veterans Health Administration Review of Alleged Use of
                            Unauthorized Wait Lists at the Portland VA Medical Center
                            (8/17/2010)

                    8.	     Healthcare Inspection – Delays in Cancer Care West Palm Beach VA
                            Medical Center West Palm Beach, Florida (6/29/2011)

                    9.	     Healthcare Inspection – Electronic Waiting List Management for
                            Mental Health Clinics Atlanta VA Medical Center Atlanta, Georgia
                            (7/12/2011)

                    10.	 Review of Alleged Mismanagement of Non-VA Fee Care Funds at the
                         Phoenix VA Health Care System (11/8/2011)

                    11.	 Healthcare Inspection – Select Patient Care Delays and Reusable
                         Medical Equipment Review Central Texas Veterans Health Care
                         System Temple, Texas (1/6/2012)

                    12.	 Review of Veterans’ Access to Mental Health Care (4/23/2012)

                    13.	 Healthcare Inspection – Access and Coordination of Care at Harlingen
                         Community Based Outpatient Clinic, VA Texas Valley Coastal Bend
                         Health Care System, Harlingen, Texas (8/22/2012)



VA Office of Inspector General                                                                       15
                        Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                at the Phoenix VA Health Care System



                    14.	 Healthcare Inspection – Consultation Mismanagement and Care
                         Delays, Spokane VA Medical Center, Spokane, Washington
                         (9/25/2012)

                    15.	 Healthcare Inspection – Delays for Outpatient Specialty Procedures,
                         VA North Texas Health Care System, Dallas, Texas (10/23/2012)

                    16.	 Audit of VHA's Physician Staffing Levels for Specialty Care Services
                         (12/27/2012)

                    17.	 Healthcare Inspection – Patient Care Issues and Contract Mental
                         Health Program Mismanagement, Atlanta VA Medical Center,
                         Decatur, Georgia (4/17/2013)

                    18.	 Healthcare Inspection – Gastroenterology Consult Delays William
                         Jennings Bryan Dorn VA Medical Center Columbia, South Carolina
                         (9/6/2013)




VA Office of Inspector General                                                                     16
                          Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                                  at the Phoenix VA Health Care System



Appendix E 	 Memorandum from the Deputy Under Secretary for
             Health for Operations and Management, Dated April 26,
             2010, Titled: Inappropriate Scheduling Practices



                   Department of                                  Memorandum
                   Veterans Affairs

           Date:    April 26, 2010

           From:    Deputy Under Secretary for Health for Operations and Management (10N)

           Subj:    Inappropriate Scheduling Practices

             To:    Network Director (10N1-23)

                    1. The purpose of the memorandum is to call for immediate action within every
                    VISN to review current scheduling practices to identify and eliminate all
                    inappropriate practices including but not limited to the practice specified below.

                    2. It has come to my attention that in order to improve scores on assorted
                    access measures, certain facilities have adopted use of inappropriate scheduling
                    practices sometimes referred to as "gaming strategies." Example: as a way to
                    combat Missed Opportunity rates some medical centers cancel appointments for
                    patients not checked-in 10 or 15 minutes prior to their scheduled appointment
                    time. Patients are informed that it is medical center policy that they must check in
                    early and if they fail to do so, it is in the medical center's right to cancel that
                    appointment. This is not patient centered care.

                    3. For your assistance, attached is a listing of the inappropriate scheduling
                    practices identified by a multi-VISN workgroup charted by the Systems Redesign
                    Office. Please be cautioned that since 2008, additional new or modified gaming
                    strategies may have emerged, so do not consider this list a full description of all
                    current possibilities of inappropriate scheduling practices that need to be
                    addressed. These practices will not be tolerated.

                    4. For questions, please contact Michael Davies, MD, Director, VHA Systems
                    Redesign (Michael.Davies@va.gov) or Karen Morris, MSW, Associate Director
                    (Karen.Morris@va.gov).




                    William Schoenhard, FACHE


                    Attachment




VA Office of Inspector General                                                                             17
                       Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                               at the Phoenix VA Health Care System



ATTACHMENT

              Scheduling Practices to Avoid: Strategies leading to poor customer service and
                         misrepresentation of Performance Measures/Monitors

                                                 Introduction

The purpose of this chapter is to provide assistance in ensuring scheduling accuracy during consultative site
visits. It will provide an outline for consultants to better assess scheduling practices and recommend
improvements.
As we strive to improve access to our veterans we must ensure in fact that improvement does not focus or
rely on workarounds. Workarounds have the potential to compromise the reliability of the data as well as
the integrity and honesty of our work.
Workarounds may mask the symptoms of poor access and, although they may aid in meeting performance
measures, they do not serve our veterans. They may prevent the real work of improving our processes and
design of systems.
We need to speak in a unified voice when interacting with staff at all levels. Our expectations are that there
will be no workarounds, and that access will continue to improve with integrity and honesty in all the work
that we do.
Systems Redesign principles provide us with the opportunity to improve not only access, but also quality,
because without access there can be no quality; satisfaction, because waiting is a huge source of
dissatisfaction; and cost of care because, delay creates waste and waste costs money. Please review the
practices below to better equip you and your team during your upcoming site visits.
                                       Scheduling Practices to Avoid

  	   Limiting/Blocking appointment scheduling to 30-day booking. Clinic profiles are created to allow for
       no more than 30-day scheduling. When patients require appointments beyond the 30 days,
            o	 they are told to call back another month to make their request, or
            o	 staff holds the appointments without scheduling until capacity opens within 30 days.
            o	 Evaluation Method: Ask the scheduler to make an appointment past 30 days. Review the use
                 of recall system and EWL.
  	   Use of a log book or other manual system. Using this method, appointments are scheduled in VistA
       at a later date instead of placing patients on the EWL. This has been observed in mental health and in
       other clinics. The use of log books are now prohibited.
           o	 Evaluation Method: Interview clinical staff and scheduling staff, especially in
                mental health. Ask specifically about whether log books are used and ask whether
                patients schedule directly with the scheduler or if they must schedule with the
                clinician. Check Display Clinic Availability listing to assure the patients are being
                scheduled in VISTA.
  	   Creation and cancellation of New patient visits: A New patient visit is created for a date within 30
       days. This visit is cancelled by the clinic; however, it is entered in Appointment Management as
       "cancelled by patient" instead of "cancelled by clinic" and rescheduled for another date within 30
       days of the cancellation. The performance measure would show a wait time under 30 days, though it
       should have been calculated at >30 days if entered correctly as "cancelled by clinic." There are



VA Office of Inspector General                                                                              18
                      Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                              at the Phoenix VA Health Care System



      several ways this has been observed:
          o	 Scheduling the New patient visit at a time the patient would prefer not to come in and then
               re-scheduling.
          o	 Creating a New patient appointment without notifying the patient. This creates a very high
               likelihood that the patient will no-show which allows for another rebooking with a restarted
               wait time.
          o	 Sites may also appropriately enter "cancelled by clinic" in Appointment Management, but
               inappropriately reschedule the appointment 1+ days later, which restarts the wait time clock.
          o	 Evaluation Method: Conduct random audits of patient appointments, sampling a variety of
               clinics. Critically assess the scheduling process using both CPRS and Appointment
               Management. Check performance measure clinics with unusually low no show rates and
               wait times.
 	   Auto-Rebooking: This scheduling option removes critical scheduling data (including Desired Date)
      from the Appointment Management scheduling package, which prevents us from verifying that the
      patient was scheduled within 30 days. Recommend against using this option.
          o	 Evaluation Method: Conduct random audits of patient appointments. Enter "Expanded
               Profile" in Appointment Management on the "*** Clinic Wait Time Information ***" screen
               and make sure that the "Request Type" does not state "AUTO REBOOK" (see screenshot
               below):




 	   Use of the recall system to "hold" patients until slots within 30 days open up.
          o	 Evaluation Method: Conduct random audits of patient appointments entered in the recall
               system. If recall is being used properly, there should be evidence in the CPRS Progress
               Notes supporting the appointment date in the recall system.



VA Office of Inspector General                                                                           19
                       Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                               at the Phoenix VA Health Care System



 	   Use of slot for Test Patient so that this slot cannot be used but then cancelling the Test Patient and
      scheduling a patient in the appointment slot. Some providers also use the Test Patient to book up
      their clinics if they are going on vacation so they do not have to cancel their clinic.
           o	 Evaluation Method: Interview schedulers and randomly look at the future clinic grids (e.g., t
                + 90 days) to see if test patients are scheduled.
 	   Block scheduling: Numerous patients are scheduled at one block of time (e.g., 8:00-12:00 pm) and
      have to wait a long time to be seen. Each patient should have his/her own appointment slot.
           o	 Evaluation Method: Randomly look at the future clinic grids to see if several patients are
                scheduled at one time. If so, ask the respective schedulers whether block scheduling is being
                used. Note: Clinics often legitimately schedule 2+ patients in each appointment slot because
                they are staffed with enough clinicians to manage patients 1:1.
 	   Cancelling patients before the appointment time has passed if:
           o the patient does not confirm the appointment in response to a reminder call/letter, or if
           o the patient does not show up 15 minutes before the appointment time.
      This strategy inappropriately eliminates the patient from the Missed Opportunity measure and is
      misleading to patients who will show up for their appointments.
           o	 Evaluation Method: Interview schedulers to determine if this practice occurs. Clinics with
                unusually low Missed Opportunity rates should be investigated more closely.
 	   For established patients, entering a Desired Date that is later than what the provider/patient agreed
      upon in order to fit the patient in within 30 days.
           o	 Evaluation Method: Cross-reference the provider's desired date from CPRS (i.e., progress
                note) with the Desired Date entered in Appointment Management. Also interview schedulers
                to determine if this practice occurs. Verify that the dates on routing slips (if used) match the
                Desired Date entered in Appointment Management.
 	   Allowing providers to request RTC dates in windows (e.g., 4-6 months). This practice allows the
      scheduler to enter a Desired Date based on clinic availability instead of when the patient needs to be
      seen.
           o	 Evaluation Method: Cross-reference the provider's Desired Date from CPRS (i.e., progress
                note) with the Desired Date entered in Appointment Management. Also interview schedulers
                and providers to determine if this practice occurs. Some facilities may have a policy
                allowing schedulers to make appointments within 2 weeks before and after the provider's
                date. Interview staff and request the policy if this is occurring. If this occurs, there needs to
                be an entry in the "Comments" section of Appointment Management describing the
                provider's/patient's preference.
 	   For Established patients, allowing the Desired Date not to be documented prevents sites from
      knowing whether the patient was given an appointment within 30 days:
           o	 For call-ins and walk-ins, schedulers should enter patient requests into the "Comments" field
                in VistA's Appointment Management system.
           o	 For normal RTC appointments, providers should document the Desired Date using
                electronic orders in CPRS. These orders must include the provider's name, the clinic name,
                and the requested RTC date. It is recommended that routing slips not be used, as they are
                shredded daily and the information is lost. Instead, some sites require providers to complete
                their treatment plan progress note before patients leave, which documents the RTC date in a
                CPRS progress note.
           o	 Evaluation Method: Interview schedulers in various clinical areas to determine whether



VA Office of Inspector General                                                                                20
                       Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                               at the Phoenix VA Health Care System



               routing slips are being used for RTC appointments. Also, randomly sample appointments to
               determine whether adequate documentation exists for call-ins, walk-ins, and standard RTC
               appointments.
 	   Basing the Desired Date on clinic availability: When a provider writes RTC in 3 weeks, the clerk
      enters +3W to find the availability of future appointments. Once a date/time is found, the clerk exits
      the system and then starts over using the identified date/time as the Desired Date.
           o	 Evaluation Method: Cross-reference the provider's Desired Date from CPRS (i.e., progress
               note) with the Desired Date entered in Appointment Management to ensure they match.
               Also, witness schedulers making appointments, watching for this practice.
 	   When clinics are cancelled and the patients need to be rescheduled, patients will be called and
      offered the next available appointment for that clinic. If they accept it, the scheduler will enter that
      date as the Desired Date as per patients' request, instead of next available.
           o	 Evaluation Method: Try to observe the way appointments are rescheduled following a clinic
               cancellation. Interview schedulers to determine whether this is happening. One option is to
               call a sampling of scheduled patients and ask how their future appointment was offered to
               them.
 	   Patients (New and Established) are offered appointments beyond 30 days, but they are documented
      as being >30 days per patient request.
           o	 New patient appointments will still fail the performance measure because the clock starts on
               the Creation Date. Nevertheless, this strategy misrepresents the patient's Desired Date.
               Patients should be asked when they would like an appointment and that date should be
               entered as the Desired Date for Established patients and entered in the Comments field for
               New patients.
           o	 Evaluation Method: The team can interview front-line schedulers, asking for the wording
               used to schedule an appointment with patients. The best method for evaluating, however,
               would be to directly observe schedulers/patients while appointments are being scheduled.
               One option is to call a sampling of scheduled patients and ask how their future appointment
               was offered to them.
 	   Access data and Performance Measures meet the standard but when you view the clinic schedules,
      they are full for the next 30+ days. This suggests the site may be gaming the system.
           o	 Evaluation Method: Examine random clinic grids 30 days into the future to determine
               whether there are any open slots. If not, ask the respective schedulers and/or service chiefs
               how they are able to meet the 30-day standard when the grids are booked 30+ days.
           o	 It is possible that they are legitimately meeting the measure if they are feeing out all New
               patients who cannot get an appointment within 30 days, or if they open clinics for extended
               hours on an as needed basis to increase supply.
 	   Not including the patient in scheduling the appointment. This occurs most often in specialty clinics
      when scheduling New patients off consults. It creates poor customer service, a high Missed
      Opportunity rate, and considerable rework to reschedule these missed appointments.
           o	 Evaluation Method: For specialty services, interview schedulers and other staff to determine
               how consults are processed and scheduled. Is there clinical review of the consults? If a
               clinician reviews the consult, does he/she reschedule the appointment him/herself? Does a
               nurse review the consult and schedule the appointment him/herself? Ask staff if they include
               patients in scheduling initial appointments and, if possible, observe their practices.




VA Office of Inspector General                                                                             21
                      Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                              at the Phoenix VA Health Care System



 	   Consult management:
         o	 When clinics are full within 30 days, consults are Cancelled or Discontinued with comments
              for the requesting provider to re-submit at a later date. This practice makes wait times
              appear shorter than they are and compromises patient care.
                    Evaluation Method: Interview Consult Manager to determine how consults are
                       managed when no appointments within 30 days are available. Also, run the
                       consult tracking report (Service Consults By Status [GMRC RPT CONSULTS BY
                       STATUS]) to assess whether an unusually high percentage of consults are being
                       Cancelled or Discontinued. If yes, investigate closer. This strategy may be
                       occurring. The service may also have a Service Agreement in place that isn't
                       working.
         o	 Holding a consult without scheduling the visit but marking the consult as completed. This
              method does not give the patient timely care, yet it allows the service to pass the 7-day
              monitor to act upon a consult.
                    Evaluation Method: Use the Completion Time Statistics ([GMRC COMPLETION
                       STATISTICS]) report. This will display how many consults are completed
                       without results or without a note attached.
         o	 Completing the consult when the appointment is scheduled rather than when the patient is
              seen.
                    Evaluation Method: Look in the Comments of the consult request. You will see
                       that the appointment was made for a future date and the consult status is
                       completed.
         o	 Discontinuing/Cancelling consults for simple reasons, forcing the consult to go back and
              forth between the requester and specialist until the clinic has availability within 30 days.
                    Evaluation Method: Run the consult tracking report to assess whether an
                       unusually high percentage of consults are being discontinued or cancelled.
                       Services with poor access are more likely to use this method to decrease their
                       demand. Also, randomly select discontinued/ cancelled consults from the consult
                       tracking report and examine them in CPRS to determine if they appear legitimate.
         o	 Not linking the consult to a scheduled appointment. If the patient no-shows or cancels, it
              would have to be manually recorded on the consult to make it active again. If it were
              attached, the consult would automatically return to an "active status for no-shows or
              cancellations and show as incomplete. Thus, not linking the consult properly will falsely
              improve your compliance with the timeliness of acting on a consult.
                    Evaluation Method: Use the Completion Time Statistics ([GMRC COMPLETION
                       STATISTICS]) report. This will show how many appointments are not linked to a
                       consult.
         o	 Cancelling and re-establishing consults on the day of the appointment. This practice
              effectively makes it appear that there are no outstanding consults and no waiting times for
              consults to be "acted on."
                   Evaluation Method: Run the consult tracking report and randomly select consults
                       to review. Verify in CPRS that consults weren't being cancelled and re­
                       established, as above. Auditors can also verify that the requesting physician of the
                       consult did not belong to the service receiving the consult.
         o	 Consults are not "acted on" within 7 days, which delays the start of the wait time measure.
              Sites should develop a process to monitor this.
                    Evaluation Method: Run the VSSC New and Established Wait Time report. This
                       will tell you the number of days between the consult request date and the
                       appointment creation date.
                    Below is a Fileman Template for Action on a Consult, developed in VISN 12, that
                       can help sites monitor this:


VA Office of Inspector General                                                                          22
                     Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                             at the Phoenix VA Health Care System



  SORT TEMPLATE:
  OUTPUT FROM WHAT FILE: REQUEST/CONSULTATION//
  SORT BY: FILE ENTRY DATE// @'DATE OF REQUEST
  START WITH DATE OF REQUEST: FIRST// T-7             (MAR 25, 2008)
  GO TO DATE OF REQUEST: LAST// T      (APR 01, 2008)
  WITHIN DATE OF REQUEST, SORT BY: (CPRS STATUS ["ACTIVE")! (CPRS STATUS ["PENDING")
  WITHIN (CPRS STATUS ["ACTIVE")!(CPRS STATUS["PENDNING"), SORT BY: TO SERVICE:
  REQUEST SERVICES FIELD: ASSOCIATED STOP CODE        (multiple)
  ASSOCIATED STOP CODE SUB-FIELD: ASSOCIATED STOP CODE:
  CLINIC STOP FIELD: @AMIS REPORTING STOP CODE
  START WITH AMIS REPORTING STOP CODE: FIRST// 303
  GO TO AMIS REPORTING STOP CODE: LAST// 303
  WITHIN AMIS REPORTING STOP CODE, SORT BY:
  STORE IN 'SORT' TEMPLATE: 	  DE CONSULTS NOT ACTED ON
                               (Apr 01, 2008@07:47) User #673 File #123        SORT OUTPUT
  FROM WHAT FILE:
  SHOULD TEMPLATE USER BE ASKED 'FROM'-'TO' RANGE FOR 'DATE OF REQUEST'? NO//YES

  SHOULD TEMPLATE USER BE ASKED 'FROM'-'TO' RANGE FOR 'AMIS REPORTING STOP CODE'?
  NO//YES

  PRINT TEMPLATE:
  FIRST PRINT FIELD: PATIENT NAME;L25
  THEN PRINT FIELD: TO SERVICE;L20
  THEN PRINT FIELD: DATE OF REQUEST;L20
  THEN PRINT FIELD: CPRS STATUS
  THEN PRINT FIELD: TO SERVICE://
  THEN PRINT REQUEST SERVICES FIELD: ASSOCIATED STOP CODE


  OUTPUT:

  PATIENT NAME           TO SERVICE           DATE OF REQUEST           CPRS STATUS
  ASSOCIATED STOP CODE
  ------------------------------------------------------------------------------------------

  TEST      TEST        ECHOCARDIOGRAM – IRO       MAR 17,2008     12:12        PENDING CARDIOLOGY
  TEST      TEST        ECHOCARDIOGRAM – IRO       MAR 17,2008     14:34        PENDING CARDIOLOGY



         o	 Not scheduling consults for Established patients within 30 days. Sites may schedule only
            New patients within 30 days, even if the Established patient is presenting with a new
            problem. This practice provides untimely care to Established patients simply because they
            have been seen within the past 2 years.
                 Evaluation Method:
                        - Search consults for Established patient and lookup the appointment
                            information in Appointment Management. Verify that the Desired Date
                            was not entered for a date into the future. If so, the service is not providing
                            timely care to these Established patients with new problems.
                        -	 The VSSC new and Established Wait Time Report will give you a list of
                            established patients that have a consult linked to the appointment. You will
                            need real SSN access to drill down to patient names.




VA Office of Inspector General                                                                          23
                     Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                             at the Phoenix VA Health Care System



Appendix F OIG Testimony on VA Patient Wait Times

                 The following testimony provides a broad overview of OIG’s oversight and
                 reporting to the Congress on patient wait times.

                  Congressional Testimony - 5/15/2014 - Statement of Richard J. Griffin,
                  Acting Inspector General, Office of Inspector General, Department of
                  Veterans Affairs, Before the Committee on Veterans’ Affairs, United States
                  Senate, Hearing on “The State of VA Health Care”

                  Congressional Testimony - 4/9/2014 - Statement of John D. Daigh,
                  Jr., M.D., Assistant Inspector General for Healthcare Inspections,
                  Office of Inspector General, Department of Veterans Affairs, Before the
                  Committee on Veterans’ Affairs, United States House of Representatives,
                  Hearing on “A Continued Assessment of Delays in VA Medical Care and
                  Preventable Veteran Deaths”

                  Congressional Testimony - 8/7/2013 - Statement of Michael L. Shepherd,
                  M.D., Before the Committee on Veterans’ Affairs, United States Senate,
                  Field Hearing: “Ensuring Veterans Receive the Care They Deserve:
                  Addressing VA Mental Health Program Management”

                  Congressional Testimony - 3/13/2013 - Statement of Linda A. Halliday,
                  Assistant Inspector General For Audits and Evaluations, Office of Inspector
                  General, Department of Veterans Affairs, Before the Subcommittee on
                  Health, Committee on Veterans’ Affairs, United States House of
                  Representatives, Hearing on “Meeting Patient Care Needs: Measuring the
                  Value of VA Physician Staffing Standards”

                  Congressional Testimony - 2/13/2013 - Statement of Office of Inspector
                  General, Department of Veterans Affairs, to the Committee on Veterans’
                  Affairs, United States House of Representatives, Hearing on “Honoring The
                  Commitment: Overcoming Barriers to Quality Mental Health Care for
                  Veterans”

                  Congressional Testimony - 9/14/2012 - Statement of Office of Inspector
                  General, Department of Veterans Affairs, to Subcommittee on Health
                  Committee on Veterans’ Affairs, United States House of Representatives,
                  Hearing on “VA Fee Basis: Examining Solutions to a Flawed System”

                  Congressional Testimony - 5/8/2012 - Statement of Office of Inspector
                  General, Department of Veterans Affairs, before the Committee on
                  Veterans’ Affairs, United States House of Representatives, Hearing on “VA
                  Mental Health Care Staffing: Ensuring Quality and Quantity”




VA Office of Inspector General                                                                  24
                     Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                             at the Phoenix VA Health Care System



                  Congressional Testimony - 4/25/2012 - Statement of Office of Inspector
                  General, Department of Veterans Affairs, Before the Committee on
                  Veterans’ Affairs, United States Senate, Hearing on “VA Mental Health
                  Care: Evaluating Access and Assessing Care”

                  Congressional Testimony - 11/15/2011 - Statement of Belinda J. Finn,
                  Assistant Inspector General for Audits and Evaluations, Office of Inspector
                  General, U.S. Department of Veterans Affairs, Before the Committee on
                  Veterans’ Affairs, United States House of Representatives, Hearing on
                  “Potential Budgetary Savings Within VA: Recommendations From
                  Veterans Service Organizations”

                  Congressional Testimony - 3/9/2011 - Statement of Richard J. Griffin,
                  Deputy Inspector General, Office of Inspector General, U.S. Department of
                  Veterans Affairs, before the Subcommittee on Military Construction,
                  Veterans Affairs, and Related Agencies; Committee on Appropriations,
                  United States House of Representatives, Hearing on “The State of the
                  Department of Veterans Affairs”

                  Congressional Testimony - 9/10/2009 - Statement of Maureen T. Regan,
                  Counselor to the Inspector General, Office of Inspector General,
                  Department of Veterans Affairs, Before the Subcommittee on Economic
                  Opportunity, Committee on Veterans' Affairs, United States House of
                  Representatives, Hearing on “The Review of SPAWAR and VA’s
                  Interagency Agreement”

                  Congressional Testimony - 5/6/2008 - Statement of Michael Shepherd,
                  M.D., Senior Physician, Office of Healthcare Inspections, Office of
                  Inspector General, Department of Veterans Affairs, Before the Committee
                  on Veterans' Affairs, United States House of Representatives, Hearing on
                  “Veterans' Suicides”

                  Congressional Testimony - 2/27/2008 - Statement of the Office of Inspector
                  General, Before Subcommittee on Military Construction, Veterans Affairs,
                  and Related Agencies; Committee on Appropriations, United States House
                  of Representatives, Hearing on “The Fiscal Year 2009 Budget for the Office
                  of the Inspector General, Department of Veterans Affairs”

                  Congressional Testimony - 2/13/2008 - Statement of Jon A. Wooditch,
                  Deputy Inspector General, Department of Veterans Affairs, Before the
                  Subcommittee on Oversight and Investigations, Committee on Veterans'
                  Affairs, United States House of Representatives, Hearing on “The FY 2009
                  Budget for the Office of Inspector General”

                  Congressional Testimony - 12/12/2007 - Statement of Belinda J. Finn,
                  Assistant Inspector General for Auditing, Office of Inspector General,


VA Office of Inspector General                                                                  25
                     Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                             at the Phoenix VA Health Care System



                  Department of Veterans Affairs, Before the Subcommittee on Oversight and
                  Investigations and the Subcommittee on Health, Committee on Veterans'
                  Affairs, United States House of Representatives, Hearing on “Veterans
                  Health Administration’s Outpatient Waiting Times”

                  Congressional Testimony - 10/3/2007 - Statement of Larry Reinkemeyer,
                  Director, Kansas City Audit Operations Division, Office of Inspector
                  General, Department of Veterans Affairs, Before the Special Committee on
                  Aging, United States Senate, Hearing on “Audit of the Veterans Health
                  Administration’s Outpatient Waiting Times”




VA Office of Inspector General                                                                  26
                      Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                              at the Phoenix VA Health Care System

Appendix G        Office of Inspector General Contact and Staff
                  Acknowledgments

                    OIG Contact 	                For more information about this report, please
                                                 contact the Office of Inspector General at
                                                 (202) 461-4720.




 VA Office of Inspector General                                                                  27
                      Review of Patient Wait Times, Scheduling Practices, and Alleged Patient Deaths
                                                              at the Phoenix VA Health Care System

Appendix H        Report Distribution

                  VA Distribution

                  Office of the Secretary

                  Veterans Health Administration

                  Veterans Benefits Administration 

                  National Cemetery Administration

                  Assistant Secretaries

                  Office of General Counsel 


                  Non-VA Distribution

                  House Committee on Veterans’ Affairs
                  House Appropriations Subcommittee on Military Construction, Veterans
                    Affairs, and Related Agencies
                  House Committee on Oversight and Government Reform
                  Senate Committee on Veterans’ Affairs
                  Senate Appropriations Subcommittee on Military Construction, Veterans
                    Affairs, and Related Agencies
                  Senate Committee on Homeland Security and Governmental Affairs
                  National Veterans Service Organizations
                  Government Accountability Office
                  Office of Management and Budget
                  United States Senate: Michael Bennet, Jeff Flake, Dianne Feinstein,
                    Charles Grassley, John McCain, Tom Udall,
                  United States House of Representatives: Ron Barber, Joe Barton,
                    Kevin Brady, Michael Burgess, John Carter, Mike Conaway,
                    John Culberson, Blake Farenthold, Bill Flores, Trent Franks, Pete Gallego,
                    Louis Gohmert, Paul Gosar, Kay Granger, Raúl M. Grijalva, Ralph Hall,
                    Jeb Hensarling, Sam Johnson, Jack Kingston, Ann Kirkpatrick,
                    Kenny Marchant, Michael McCaul, Randy Neugebauer, Pete Olson,
                    Ed Pastor, Ted Poe, Matt Salmon, David Schweikert, Pete Sessions,
                    Kyrsten Sinema, Lamar Smith, Mac Thornberry, Randy Weber,
                    Roger Williams




            This report is available on our Web site at www.va.gov/oig.




 VA Office of Inspector General                                                                  28
